July 31, 2003

JOHN R. WARGO
VICE PRESIDENT, SERVICE AND MARKET DEVELOPMENT

SUBJECT:        Audit Report – Postal Service Postmark America Store
                (Report Number OE-AR-03-005)

This report presents the results of our audit of the Postmark America Store (Project
Number 03BG040OE000). This was a self-initiated audit to identify whether the Postal
Service was meeting its management challenge goal of achieving a positive return on
investment on its activities.

Based on our calculations, the retail portion of the store has generated losses for the
Postal Service totaling over $8.3 million. The Postal Service recently has taken steps to
improve its return on investment, specifically, by eliminating significant storage costs on
merchandise that was not selling. Although the store as a whole has generated total
revenue of over $8.6 million, our audit disclosed that traditional postal services at the
store, such as selling stamps and packaging supplies, accounted for most of the
revenue, while the retail portion of the store accounted for only $1.7 million. We
determined that retail sales represented only 20 percent of total revenue while retail
merchandise accounted for 66 percent of the store’s floor space. If the Postal Service
had renewed and extended the current lease for an additional 2 years, the Postal
Service would have continued to lose money.

                                      Background

Postmark America is a retail store in the Mall of America in Minneapolis, Minnesota, that
sells Postal Service related merchandise such as shirts and caps. The store was
established in 1996 as a pilot to increase revenue by utilizing its brand image and
expand its base through related retail merchandise. The store is considered a contract
postal unit that is funded by the Postal Service and acts as a traditional Postal Service
operation that sells stamps and provides postal services. The store is staffed by contract
employees and managed by a Postal Service employee from the Northland District. The
current lease for the store expires in May 2004.
Postal Service Postmark America Store                                          OE-AR-03-005



                         Objective, Scope, and Methodology
The objective of the audit was to determine if the Postmark America store could operate
at a profit without combining revenue from traditional postal services.

The scope of the audit was limited to the store located in the Mall of America in
Minneapolis, Minnesota. To accomplish our objectives, we interviewed Postal Service
officials at headquarters and the Postmark America store, reviewed applicable policies
pertaining to contract postal units, analyzed profit and loss statements and other financial
documentation for fiscal years (FY) 1997 through accounting period 6, FY 2003 and
reviewed other materials necessary to gain an understanding of the subject matter.

This audit was conducted from March through July 2003, in accordance with generally
accepted government auditing standards and included such tests of internal controls, as
were considered necessary under the circumstances. We relied on computer-generated
data for the profit and loss statements and our assessment of this data concluded that it
was generally reliable. We discussed our conclusions and observations with appropriate
management officials and included their comments, where appropriate.

                                   Prior Audit Coverage
The Office of Inspector General (OIG) issued the audit report, PostmarkAmerica.com
Financial and Management Issues (Report Number EM-AR-02-008, dated March 29,
2002), to address the development and operation of the Internet Web site
PostmarkAmerica.com. The audit disclosed that the Postal Service did not effectively
manage the development and operation of PostmarkAmerica.com. As a result,
PostmarkAmerica.com: (1) was not economically justified and may not achieve a positive
return on investment, (2) did not have a migration plan to USPS.com, and (3) did not
have a Web site development that was based on authorized commitments and clearly
spelled out in the contract scope. Management agreed with all recommendations related
to PostmarkAmerica.com programmatic issues, but disagreed that its creation was
outside the contract scope and based on unauthorized commitments. However, since
the issuance of our report, management has taken actions which should correct the
issues identified in the report.

The OIG issued the audit report, Postal Retail Store Operations (Report Number
EM-AR-02-002, dated February 28, 2002), that responded to a request from the
Governors to review the profitability and adequacy of management controls of Postal
Service retail stores. The audit revealed the Postal Service lacked necessary data to
accurately evaluate the financial performance of retail stores and that management was
unable to reasonably compute the economic impact of building Postal Service retail
stores because it had not developed methods to isolate financial and performance data
for individual stores. Additionally, the OIG found that local managers did not implement
management controls over Postal Service retail store operations. Management agreed



                                             2
Postal Service Postmark America Store                                          OE-AR-03-005



with our recommendations and has initiatives in progress, completed, or planned
addressing the recommendations.

                                                     Results
Retail Store Has Generated Losses, But Changes Made to Reduce Costs

Based on our calculations, the retail portion of the store has generated losses for the
Postal Service totaling over $8.3 million. The Postal Service has incurred annual costs
since 1997 to contract with Minnesota Diversified Industries to act as a fulfillment and
storage center for retail merchandise for the Postmark America retail store. Merchandise
was ordered by the Postal Service, the call center transmitted the orders, and Minnesota
Diversified Industries shipped according to the instructions in the orders. For FYs 2000
through 2003 the Postal Service paid Minnesota Diversified Industries over $5.4 million
for storage of Postmark America merchandise.

As Postal Service officials have acknowledged, poor management decisions for ordering
Postmark America merchandise early on in the program resulted in an overstock of
merchandise. This resulted in 6,000 pallets of excess merchandise that had been stored
at the Minnesota Diversified Industries facility since 1997. These items became
outdated and little or no demand for the inventory existed even at reduced prices. In
June 2002, Postal Service management made a decision to eliminate the costs to store
merchandise that would not sell and terminated the contract with Minnesota Diversified
Industries in April 2003. The remaining retail merchandise located at Minnesota
Diversified Industries was then liquidated from June 2002 until March 2003.

Retail Store Has Not Performed As Intended

Since 1997, according to the Postal Service’s profit and loss statements,1 the store has
generated total revenue of over $8.6 million of which over $1.7 million is for retail
merchandise and the remainder is for traditional postal services. We noted, however,
that the profit and loss statements did not contain the expenses related to Minnesota
Diversified Industries and that the retail portion of the store has generated losses for the
Postal Service totaling over $8.3 million. Although the retail merchandise floor space
accounts for 66 percent of the Mall of America store, it only accounts for 20 percent of
the total revenue for the store. The store is 2,774 square feet of which 1,830 square feet
is attributable to retail merchandise.




1
    For the time period FY 1997 through accounting period 6, FY 2003.




                                                           3
Postal Service Postmark America Store                                            OE-AR-03-005



                  Chart 1. Postmark America Store Information on
                Square Footage and Revenue Since Program Inception

                                                            Store revenue
                                          Percentage of          since
                               Square         square           inception       Percentage
 Type of service               footage       footage         (in millions)     of revenue
 Retail merchandise               1,830             66%                $1.7            20%
 Traditional postal                 944             34%                $6.9            80%
 Total                            2,774            100%                $8.6           100%

According to Postal Service management and the budget narratives, the store was first
established to meet Postal Service goals and objectives to generate profit and increase
revenue for the district. However, since that time, the Postal Service has changed its
corporate direction and current goals to limit merchandise that does not directly
complement its traditional business.

The retail portion of the store is losing money for the Postal Service because of several
factors. Postal Service management established the store as a model unit and a test
bed for evaluating new retail solutions for specialized, high traffic environments. The
store was to serve as a lab to test new merchandise, much of which would ultimately be
sold in post offices. The pilot never officially ended but continued to change to meet
different goals identified by the Postal Service. With the issuance of the Transformation
Plan, new Postal Service policy was created to limit merchandise that did not directly
complement traditional business.

As a result, the Postal Service has not achieved its original goals to increase profit. For
example, in FY 2002, it cost the Postal Service over $544,000 to operate the retail
portion of the Postmark America store. Based on retail merchandise revenue of over
$248,000 the Postal Service had a loss of $296,000 for the year. In addition, the Postal
Service incurred a cost of over $1 million to Minnesota Diversified Industries for storage
of retail goods. This amount is not reflected on the profit and loss statements. When
included in total cost to operate the retail portion of the store, it would incur a loss for
FY 2002 of almost $1.3 million.

Over the life of the store the retail portion has lost over $1.9 million according to Postal
Service profit and loss statements. However, when the costs associated with Minnesota
Diversified Industries are included, it has lost over $7.3 million (see Chart 2, column two,
including storage expenses). In addition, the store is not in compliance with the current
objectives of the Postal Service to strictly sell merchandise directly related to traditional
business.

The following chart depicts the total revenue and expenses for the retail portion of the
store since inception. The first column shows revenue, expenses, and profit/loss using
the Postal Service profit and loss statements. The second column adds the additional


                                              4
Postal Service Postmark America Store                                                                      OE-AR-03-005



expenses incurred using Minnesota Diversified Industries. The third column adds the
additional expense of corporate transfer cost2 charged by headquarters. Regardless of
the method used, the retail portion of the store is operating at a loss.

                               Chart 2. Profit and Loss Information
                           For Retail Portion of Postmark America Store
                          FY 1997 Through Accounting Period 6, FY 2003

                                                                                                    Including
                         Using profit and loss                   Including storage
                                                                                                corporate transfer
                             statements                              expenses3
                                                                                                      costs4
Revenue                                           $1.7                               $1.7                     $1.7
Expenses                                          $3.7                               $9.1                    $10.0
Profit/(loss)                                    $(1.9)                             $(7.3)                   $(8.3)
Note: Dollars in millions.

                                                     Summary

The retail portion of the Postmark America store has not performed as intended nor
increased profit for the Postal Service. In fact, the retail portion of the store has cost the
Postal Service $8.3 million since inception, an average of almost $1.25 million a year.
Furthermore, the store was not in compliance with the current objectives of the Postal
Service to strictly sell merchandise directly related to traditional business operations. If
the Postal Service were to renew and extend the current lease for an additional 2 years,
we estimate the Postal Service would continue to lose money over this period.

Recommendation

We recommend the vice president, Service and Market Development:

         1. Not renew the Postmark America store lease with the Mall of America.

Management’s Comments

Management agreed with the recommendation. Management stated that a nonrenewal
notice for the Postmark America Store was given by headquarters Retail to the Mall of
America and affected headquarters and area units. Management’s comments, in their
entirety, are included in the appendix of this report.

2
  Transfer costs include costs to transport, process, and deliver mail for which postage is sold. These costs are
charged back or transferred to the store to reflect corporate cash flow.
3
  We were only able to obtain storage costs for FYs 2000 through 2003.
4
  The allocation of the corporate transfer costs to the retail portion of the store was based on our calculation of the
retail store’s portion of revenue 20 percent or $883,000.
5
  This figure is calculated using the $8.3 million divided by the 7 years the retail store has operated.




                                                             5
Postal Service Postmark America Store                                          OE-AR-03-005




Recommendation

We recommend the vice president, Service and Market Development:

       2. Implement controls to monitor ordering of new merchandise at the Postmark
          America store to coincide with the termination of the current lease and closing
          of the store in May 2004.

Management’s Comments

Management agreed with the recommendation and plans to closely monitor inventory
levels at the store through closing in May 2004, and will also develop a plan to transfer or
dispose of any remaining merchandise prior to the store closing.

Evaluation of Management’s Comments

Management’s comments are responsive to recommendations 1 and 2, and actions
taken or planned should correct the issues identified in the report.

Although they agreed with our recommendations, management stated they did not agree
that transfer costs should be considered in determining the profit and loss for the store.
However, charging the store transfer costs is a corporate decision made by Postal
Service Headquarters. In addition, this report shows that even without these transfer
costs included the store is operating at a loss. Management’s comments also
questioned the $5.4 million in storage costs at Minnesota Diversified Industries stating,
“the warehousing and order fulfillment operation at Minnesota Diversified Industries
supported more than 12,000 Postal Service locations, not solely Post Mark America.”
We determined from headquarters officials, the manager of the store and Minnesota
Diversified Industries officials that although shipments of Postmark America merchandise
were on occasion made to other locations it was very infrequent. In addition, we were
told that the purpose of the storage unit was to support the store at the Mall of America
and if the store did not exist these costs would not have been incurred.

The OIG considers recommendation 1 significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action(s) are completed. This recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




                                             6
Postal Service Postmark America Store                                         OE-AR-03-005



We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have questions or need additional information, please contact Linda J. Libician,
director, Organizational Effectiveness, at (650) 412-3001, or me at (703) 248-2300.



Ronald D. Merryman
Deputy Assistant Inspector General
 for Technology/Oversight

Attachment

cc: Robert J. Sheehan
    Pamela G. York
    Mike Cook
    Claudia O. Barnett
    Susan M. Duchek




                                            7
Postal Service Postmark America Store                 OE-AR-03-005



                    APPENDIX. MANAGEMENT’S COMMENTS




                                        8
